Office of Inspector General


     March 29, 2005

     MEMORANDUM

     TO:               Director, USAID/Egypt, Kenneth C. Ellis

     FROM:             Regional Inspector General/Cairo, David H. Pritchard /s/

     SUBJECT:          Survey of USAID/Egypt’s Population and Health Activities
                       (Report No. 6-263-05-003-S)

     This memorandum transmits our final report on the subject survey. This is not an
     audit report, and the report does not contain suggestions or recommendations.
     However, the survey information forms a future basis for audit. In finalizing our report,
     we considered your comments on our draft report and have included your response in
     its entirety in Appendix II.

     I appreciate the cooperation and courtesy extended to our staff throughout the survey.
BACKGROUND
Since the late 1970s, USAID has invested approximately $550 million in the population
and health sector in Egypt. During this time period, health indicators in Egypt have
improved. For example, 57 percent of married women now use modern contraceptives,
more than double the 1980 rate. The total fertility rate 1 has fallen by a third—from 5.3
births per woman in 1980 to 3.2 births in 2003. In addition, 95 percent of Egyptians
reside within five kilometers of a health clinic or family planning clinic. More recently, the
2003 Egypt Interim Demographic and Health Survey documented that, between 2000
and 2003, infant and under-five child mortality declined, use of modern family planning
methods increased, total fertility declined, and more women gave birth attended by
medical providers.

According to USAID/Egypt's financial records, USAID/Egypt had expended $265 million
for population and health activities to support its current Strategic Objective, "Healthier,
Planned Families", as of September 30, 2004. These activities focused on (1) family
planning, (2) maternal and child health, (3) infectious diseases surveillance and
response, (4) communication for healthy living, (5) health workforce development, and
(6) health policy support. USAID/Egypt plans to expend approximately $94 million for
this Strategic Objective over fiscal years 2005-2009.

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s fiscal year 2004
audit plan to answer the following question:

•   What is the status of USAID/Egypt’s population and health activities?

Appendix I contains a discussion of the survey’s scope and methodology.




1
  Fertility rates measure the average number of live births a woman would have
throughout her reproductive life.

                                                                                            1
DISCUSSION
USAID/Egypt administered its population and health activities through six intermediate
results under its Strategic Objective. Each of the six intermediate results is associated
with a specific project and performance indicators as presented in Table 1 below. In
addition, the results framework included two performance indicators at the strategic
objective level as shown in Appendix III.

    Table 1: Results Framework for USAID/Egypt's Population and Health Program

                                                              Performance Indicators
     Intermediate Result (IR)          Project             Reporting Results for 2003
    IR 20.1 -- Improved Family   Improving Our         •   Contraceptive prevalence rate
    Planning and Reproductive    Health through            of modern methods
    Health                       Planning Our          •   Percentage of low parity
                                 Families                  women in the reproductive age
                                 (TAHSEEN2)                using family planning
    IR 20.2 -- Improved          Healthy Mother        •   Percentage of births attended
    Maternal and Child Health    Healthy Child             by medical providers
                                                       •   Percentage of antenatal clients
                                                           who received antenatal care
                                                           that meets minimum standards
                                                       •   Number of districts
                                                           implementing integrated
                                                           management of childhood
                                                           illness program
    IR 20.3 -- Improved          Infectious Disease    •   Number of newly established
    Surveillance and             and Surveillance          epidemiology and surveillance
    Response to Infectious       Response                  units
    Diseases                                           •   Number of districts reporting on
                                                           incidence of reportable
                                                           prioritized diseases up to
                                                           central level
    IR 20.4 -- More Effective    Communication for     •   Percentage of women who
    Communications for           Healthy Living            support female genital cutting
    Healthy Living
    IR 20.5 -- More Effective    Health Workforce      •   None
    Health Workforce             Development
    IR 20.6 -- Reformed Health   Health Policy and     •   Percentage of Ministry of
    Policy and Improved Use      Information Project       Health and Population hospitals
    of Management and Health     (later known as           operating under ministerial
    Information                  Focus on Family           decree guiding cost recovery
                                 Health)




2
    TAHSEEN is the common Arabic title for the project and translates as “improving”.

                                                                                          2
According to USAID/Egypt's financial records, the Mission had expended approximately
$223 million since the inception of the six projects, as of September 30, 2004. The
Mission also expended about $42 million under its Cash Transfer program for a total of
about $265 million as detailed in Table 2.

    Table 2: Obligations and Expe nditures for USAID/Egypt's Population and Health
                     Strategic Objective through September 30, 2004

                     Project Name 3                     Obligations    Expenditures
      TAHSEEN                                           $127,962,297    $100,358,592
      Healthy Mother Health Child                         84,514,363      69,919,774
      Infectious Disease and Surveillance Response        28,825,795      21,936,964
      Communication for Healthy Living                    12,297,150       2,668,415
      Health Workforce Development                        10,081,131       1,603,324
      Focus on Family Health                              33,731,168      26,105,003
      Cash Transfer                                       42,163,000      42,163,000
      Strategic Objective Management                         925,270          51,911
                                            Total =     $340,500,174    $264,806,983

USAID/Egypt administered its population and health activities through six intermediate
results—each associated with a specific project. The purposes of the projects are as
follows.

TAHSEEN – The purpose of this project was to improve family planning and
reproductive health by increasing the availability, attractiveness, and quality of services
offered, and expanding consumer choice. More specific activities included the following:

•        Build local and national capacity in the public, non-governmental organization,
         and commercial sectors to manage family planning and reproductive health
         services.

•        Support policies that enable the Ministry of Health and Population to use its
         resources more efficiently and allow the commercial and non-governmental
         organization sectors to expand.

•        Develop a showcase governorate in Upper Egypt, demonstrating how family
         planning and reproductive health and other interventions can synergize
         sustainable impact in health and population.

Healthy Mother Healthy Child – The purpose of this project was to expand and
improve maternal child health services by narrowing the access gap for services
between rural Egypt and the rest of the country. It also intended to strengthen the
capacity of Egyptian institutions to meet the needs of the poor. More specific activities
included the following:

•        Expand access of essential maternal, prenatal, and child health services to poor
         and under-served populations through more effective targeting resources and
         services.

3
    Totals include amounts from predecessor projects.

                                                                                         3
•      Advance cooperation and communication between community representatives
       and health providers.

•      Enhance public health activities of non-governmental organizations and the
       commercial sector.

•      Eradicate polio in Egypt to the level of other regional countries.

Infectious Disease and Surveillance Response – The purpose of this project was to
build Egypt's capacity for conducting infectious disease surveillance and responding to
widespread and emerging diseases. More specific activities included the following:

•      Support the development of a national infectious disease surveillance and
       response system, and strengthen the Ministry of Health and Population's
       Epidemiology and Surveillance Unit.

•      Build institutional capability to conduct infectious disease research in selected
       institutions.

•      Develop interventions that prevent and control blood borne and other pathogens,
       especially viral hepatitis, HIV/AIDS, tuberculosis, and sexually transmitted
       infections.

Communications for Healthy Living – The purpose of this cross-cutting support
project was to emphasize behavior change in health and lifestyle practices. It supported
information, education, and communication activities enabling families and communities
to better protect and maintain their health. It also improved the capacity of the
Government of Egypt to carry out communications. More specific activities include the
following:

•      Build the capacity of the Ministry of Health and Population to set and implement
       national public health agendas and communications strategies, plans, and
       programs.

•      Increase public and commercial sector participation in the development of a
       national health agenda.

•      Build on successful family planning and maternal and child survival information,
       education, and communication campaigns to promote behavior change.

Health Workforce Development – The purpose of this project was to strengthen
undergraduate physician and nursing education with emphasis on basic health care. It
addressed the inadequacy of professional training for nurses and doctors and ensured
that the Ministry of Health and Population and other health institutions receive competent
graduates of medical and nursing schools. More specific activities included the
following:

•      Develop and standardize physician and nurse undergraduate curriculum.



                                                                                        4
•      Establish professional linkages with American medical and nursing schools.

•      Strengthen medical and nursing schools’ faculty training capacity.

Health Policy and Information (Later Known as Focus on Family Health) – The
purpose of this cross-cutting project was to support health policies that promote
sustainability of basic health services, especially maternal and child health, infectious
disease control, and family planning. The policies also supported sector growth
balanced between commercial and non-governmental organizations, greater efficiency
of public sector services, changes in the organization and financing of health service
delivery, and accountability toward consumers.




                                                                                       5
CONCLUSION
For fiscal year 2003, USAID/Egypt’s population and health activities had mixed success
in achieving their intended results as measured by the 11 primary performance
indicators in the Mission’s Annual Report. As detailed in Appendix III, the Mission met or
exceeded 8 of the 11 performance indicator targets, fell short on 2 targets, and did not
report results for 1 performance indicator. However, for the 2 performance indicators
where the Mission fell short of its targets, the differences were 10 percent or less.
Specifically, the differences were 1 percent and 10 percent below target.

Although USAID/Egypt reported mixed success in achieving their intended results, it was
accomplishing its overall objective according to Mission officials. For example, the 2003
Egypt Interim Demographic and Health Survey documented that mortality and fertility
rates have dropped substantially. Fertility rates fell from 5.3 births per woman in 1980 to
3.2 births in 2003. The infant mortality rate was 44 deaths per 1000 births in 2000 as
compared to 38 deaths per 1000 births in 2003. The under-five mortality rate was 54
deaths per 1000 births in 2000 as compared to 46 deaths per 1000 births in 2003.

Furthermore, USAID/Egypt officials noted that the use of modern family planning and
contraceptive methods increased as shown in Table 3 and documented in the 2003
Egypt Interim Demographic and Health Survey. For example, family planning changed
rapidly at the national level in the 1980s, with increases of around 1.5 percentage points
annually between 1980 and 1988 and a near doubling of use levels between 1980 and
1992 (from 24 percent to 47 percent). The use rate remained relatively stable at around
47 percent during the early 1990s to mid 1990s and then began to rise again, reaching
60 percent in 2003.

   Table 3: Trends in Use of Family Planning Methods Between 1992 and 2003

     Family Planning Method         1992 1995        1997     1998      2000    2003
    • Any Method                     47.1  47.9       54.5      51.8     56.1    60.0
    • Any Modern Method              44.8  45.5       51.8      49.5     53.9    56.6
    • Any Traditional Method          2.3   2.4        2.7       2.3      2.2     3.4
    • Not Using                      52.9  52.1       45.5      48.2     43.9    40.0
                 Total Percent =    100.0 100.0      100.0     100.0    100.0   100.0

Finally, a USAID/Egypt official noted that more than 158 disease control units are now
on-line monitoring diseases and outcomes in over 50 percent of Egypt. By the end of
2004, surveillance systems will be in place throughout Egypt.

Despite these gains, USAID/Egypt’s Annual Report cited significant health challenges.
Egypt is one of the most densely-populated countries in the world, and the population
continues to grow at 2.1 percent annually. While basic infrastructure and health services
cover nearly all of Egypt, the quality and efficacy of care are very uneven. Rural and
lower income families, particularly women and young children, face major impediments
to obtain the most basic health information and services. As a result, USAID assistance
continues to focus on ensuring that vital and effective health information and service are
available to all people, especially women and young children.


                                                                                         6
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Egypt noted that the survey report contained
no suggestions or recommendations, and the Mission agreed with its contents.




                                                                                     7
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this survey of USAID/Egypt's
population and health activities. Our survey was not an audit and covered the status of
USAID/Egypt's population and health activities as of September 30, 2004. According to
USAID/Egypt’s financial records, USAID/Egypt expended about $265 million in
population and health activities to support its current Strategic Objective, "Healthier,
Planned Families". USAID/Egypt plans to expend an additional $94 million between
fiscal years 2005 and 2009.

This assignment was part of the Office of Inspector General fiscal year 2004 audit plan
and was originally scheduled to be an audit with the following audit objectives: (1) "What
is the status of USAID/Egypt's population and health activities?" and (2) "Have
USAID/Egypt's population and health activities progressed toward their intended
results?" We changed this assignment to a survey covering the first objective due to
staffing requirements and our assessment of the risk exposure of the population and
health program. We plan to conduct a separate audit at a later time based on the
second audit objective or a similar audit objective.

We conducted the survey at USAID/Egypt in Cairo, Egypt, in answering audit
objective 1.  Preliminary survey work was conducted from April 18, 2004, to
May 13, 2004. The fieldwork was resumed from June 3, 2004, through July 29, 2004,
and October 18, 2004, through October 31, 2004.

Methodology
During this survey, we interviewed USAID/Egypt officials and reviewed documentation
on USAID/Egypt's population and health activities. These interviews and documents
covered background, organization, management, budget, staffing responsibilities, project
information, prior reviews, and internal controls in order to gain an understanding of the
actual and potential problems in implementing the population and health activities. We
did not independently validate information.

We also assessed the risk level of USAID/Egypt's population and health program. In
accomplishing that, we listed possible risk areas that could impact program results. For
each risk, we identified the control objective that we would expect to be in place so that
the Mission can avoid the specific risk. We interviewed Mission officials to determine
whether internal controls were in place to achieve each control objective.




                                                                                        8
                                                                       APPENDIX II

March 13, 2005

Memorandum

To:           David Pritchard, RIG/Cairo

From:         Kathryn Panther, USAID/Egypt, HRH/PH /s/

Subject:      Mission Response to Draft Report on Survey of USAID/Egypt’s
              Population and Health Activities (Report No. 6-263-05-00x-S)



The Mission has reviewed the draft report on the Survey of USAID/Egypt’s Population
and Health Activities issued on February 14, 2005. The survey contains no suggestions
or recommendations and the Mission agrees with its contents. Per our discussion with
RIG, minor edits have been transmitted by e-mail.

We appreciate all efforts made by the RIG/Cairo audit team during this survey and
request RIG to issue the report in final.




                                                                                   9
                                                                        APPENDIX III

Fiscal Year 2003 Population and Health Performance Indicators and Reported Results

                                                                            Percentage
                                                                             Below or
No.        Performance Indicator         Target   Reported   Difference    Above Target
      Total Fertility Rate (Strategic
      Objective level performance                                            6% Above
1     indicator)                          3.4       3.2         +0.2          Target
      Infant Mortality Rate (Strategic
      Objective level performance                                            5% Above
2     indicator)                          40         38         +2            Target
      Contraceptive Prevalence Rate
      of Modern Methods
3     (Intermediate Result 20.1)          57%       57%         0%          Met Target
      Percent of Low Parity Women
      in the Reproductive Age Using
      Family Planning (Intermediate                                          2% Above
4     Result 20.1)                        46%       47%         +1%           Target
      Percent of Births Attended by
      Medical Providers (Intermediate                                        6% Above
5     Result 20.2)                        65%       69%         +4%           Target
      Percent of Antenatal Clients
      Who Received Antenatal Care
      That Meets Minimum
      Standards (Intermediate Result      No
6     20.2)                              Data     No Data     No Data      Not Applicable
      Number of Districts
      Implementing Integrated
      Management of Childhood
      Illness Program (Intermediate                                         16% Above
7     Result 20.2)                        75         87         +12           Target
      Number of Newly Established
      Epidemiology Surveillance                                             100% Above
8     Units (Intermediate Result 20.3)    30         60         +30           Target
      Number of Districts Reporting
      on Incidence of Reportable
      Prioritized Diseases up to
      Central Level (Intermediate                                           58% Above
9     Result 20.3)                        100       158         +58           Target
      Percent of Women Who
      Support Female Genital Cutting                                         1% Below
10    (Intermediate Result 20.4)          72%       71%          -1           Target
      Percent of Ministry of Health
      and Population Hospitals
      Operating under Ministerial
      Decree Guiding Cost Recovery                                          10% Below
11    (Intermediate Result 20.6)          30         27          -3           Target




                                                                                   10
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
